Department of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENERAL




        MEDICARE PAYMENTS
       FOR NEBULIZER DRUGS




                                         I
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia Regional Office, under the direction of Thomas
J. Robertson, Regional Inspector General for Audit Services, and Robert A Vito, Regional
Inspector General for Evaluation and Inspections. Project Staff included:

Philadelphia Region                                 Headquarters

David Graf, Project Leade~ OAS                      Mary Beth Clarke, B-ogramAnaZyst
Robert A. Katz, ProgramAnalyst
Cynthia R. Hansford, ProgramAssistant
Neil Montavani, Intern
Depafiment of Health and Human Sefices
        OFFICE OF
   INSPECTOR GENEML




        MEDICARE PAYMENTS

       FOR NEBULIZER DRUGS





                $$SERVICE$   ~a+
            &
            +                      JUNE GIBBS BROWN
           ~w
           ~
           s
           %
             %+
                  $
              ‘%’d~a
               >
                                   Inspector General

                                      FEBRUf=Y      1996
                                       oEI-03-94-00390
              EXECUTIVE                         SUMMARY


PURPOSE

This report examines differences in the reimbursement methodologies used by the
Medicare and Medicaid programs to pay for prescription drugs, focusing on three
inhalation drugs used in nebulizers.

BACKGROUND

Medicare does not generally pay for outpatient prescription drugs. However, there
are several exceptions to this general rule, including payment for drugs used in
conjunction with medical equipment. For such drugs, Medicare computes an allowed
amount based on the lower of the Estimated Acquisition Cost (EAC) or the national
Average Wholesale Price (AWP). The allowed amount is the price that Medicare and
its beneficiaries pay a drug supplier. If a drug has multiple sources, price is based on
the lower of the EAC or the median of the national AWP for all generic sources.

The Medicaid program provides coverage for outpatient prescription drugs as an
optional benefit. Currently, all States provide coverage for outpatient prescription
drugs. Medicaid payment policies for such drugs vary across States, within guidelines
established by the Health Care Financing Administration (HCFA). Many States
discount the AWP to set drug prices. The Medicaid program, in addition, uses a
rebate program to obtain discounts from pharmaceutical manufacturers.

In this report, we compare Medicare and Medicaid costs in 17 States for three drugs
used in conjunction with nebulizers by Medicare beneficiaries from January 1994
through February 1995. A nebulizer is a medical device which administers drugs for
inhalation therapy for patients with respiratory conditions such as asthma or
emphysema. Medicare allowed amounts (which include 20 percent copayments by
beneficiaries) for nebulizer drugs remained relatively stable between 1990 and 1992,
never exceeding $74 million. Allowed amounts increased to $170 million in 1993 and
$226 million in 1994, more than a 200 percent increase from 1990.

FINDINGS

l@&kare and b ben#iciaries paid about $37 millibn more for three nebulimrdregsin 17
Statesthanthe amount thatMedicaidwouklhavepaidfor equivalentdiugs.

       We found that over $11.7 million of the higher costs are attributable to the
       method Medicare employs to determine prices paid to drug suppliers, and
       about $25.3 million is due to the lack of a manufacturers’ rebate program,
       similar to Medicaid’s.




                                            i
PotentialMedicaresavingsare not restited to the threenebulizerdrugsand 17 States
reviewed

      Because of inherent differences in the reimbursement methodologies followed

      by Medicare and Medicaid, the potential cost savings available to Medicare are

      not, in our opinion, restricted to either the three drugs or the 17 States

      included in our review. For instance, if Medicare had revised its drug pricing

      methodology and implemented a manufacturers’ rebate program, it and its

      beneficiaries could have saved about $58 million of the $226 million allowed for

      nebulizer drugs (excluding administrative costs) in 1994.


      Medicare also allowed more than $1 billion for other drugs in 1994. We

      estimate that Medicare and its beneficiaries could have saved about $83 million

      for these drugs had Medicare’s drug pricing methodology been revised.

      Furthermore, had there been a drug rebate program in effect, the estimated

      savings could have increased even more substantially.


RECOMMENDATIONS

We recommend that HCFA reexamine its Medicare drug reimbursement
methodologieswith a goal of reducing payments as appropriate.

Our study demonstrated that Medicare could have saved millions by discounting the

wholesale price and establishing a rebate program. We recognize, however, that other

cost saving options are available. One or more of the following options should be

aggressively pursued to save Medicare funds and to place this program on par with

Medicaid and other payers in obtaining competitive pricing for prescription drugs.


Discounted Wholesale Price


Many State agencies use a discounted AWP to establish drug prices. Medicare should

have a similar option. Medicare could base its drug payment on the lower of a

discounted AWP or the median of the AWP for all generic sources, whichever results

in the lower cost to Medicare and its beneficiaries. To implement this

recommendation, HCFA would have to revise Medicare’s claims coding system which

does not identify the manufacturer or indicate if the drug is a brand name or a generic

equivalent, information that is needed to discount the AWP and obtain a rebate for a

specific drug. Medicaid uses the National Drug Code (NDC) in processing drug

claims. The NDC identifies the manufacturer and reflects whether the drug is a brand

name or a generic equivalent.


Manufacturers’   Rebates


Medicare could develop a legislative proposal to establish a mandated manufacturers’

rebate program similar to Medicaid’s rebate program. We recognize that HCFA does

not have the authority to simply establish a mandated manufacturers’ rebate program



                                           11
similar to the program used in Medicaid. Legislation was required to establish the
Medicaid rebate program, and would also be required to establish a Medicare rebate
program. We have not thoroughly assessed how a Medicare rebate program might
operate, what administrative complexities it might pose, or how a Medicare rebate
program might differ from a Medicaid rebate program. We believe, however, the
legislative effort would be worthwhile. The same manufacturers that provide rebates
to Medicaid make the drugs that are used by Medicare beneficiaries and paid for by
the Medicare program.

Com~etitive Bidding

Medicare could develop a legislative proposal to allow it to take advantage of its
market position. While competitive bidding is not appropriate for every aspect of the
Medicare program or in every geographic location, we believe that it can be effective
in many instances, including the procurement of drugs. Medicare could ask
pharmacies to compete for business to provide Medicare beneficiaries with
prescription drugs. All types of pharmacies could compete for Medicare business,
including independents, chains, and mail-order pharmacies.

Inherent Reasonableness

Since Medicare’s guidelines for calculating reasonable charges for drugs result in
excessive allowances, the Secretary can use her “inherent reasonableness” authority to
set special reasonable charge limits. If this option is selected, however, it will not be
effective unless the Secretary’s authority to reduce inherently unreasonable payment
levels is streamlined. The current inherent reasonableness process is resource
intensive and time consuming, often taking two to four years to implement. Medicare
faces substantial losses in potential savings--certainly in the millions of dollars--if
reduced drug prices cannot be placed into effect quickly.

Acquisition Cost

Medicare could base the payment of drugs on the EAC. The Durable Medical
Equipment Regional Carriers (DMERCS) currently have this option; however, HCFA
has been unsuccessful in gathering the necessary data to fully implement it. Once the
problem of gathering the necessary data is overcome, the use of the EAC would result
in lower allowed amounts.

Our work regarding drugs reimbursed by Medicare is continuing. We will explore
reasons for the sharp increase in reimbursement for nebulizer drugs that occurred in
1993 and 1994. We will also determine the actual prices drug suppliers pay for
nebulizer drugs. Finally, we will examine other drugs Medicare reimburses to ensure
that they are properly priced, and to validate our premise that the differences inherent
in the reimbursement methodologies of Medicare and Medicaid cause Medicare to
pay more for drugs than Medicaid, regardless of the type of drug or where Medicare
beneficiaries reside,


                                            111
AGENCY COMMENTS

The HCFA concurred with our recommendation and is currently examining available
options in an effort to make appropriate drug payment reductions. The HCFA
expects by early 1996 to reach a decision on whether to proceed with a legislative
proposal or to revise current regulations. The full text of HCFA’S comments can be
found in Appendix B.




                                         iv
                 TABLE                   OF CONTENTS

                                                                                                                PAGE



EXE~          S~Y
                                                                                                             . . . . . . 1

~ODU~ON             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                                                                              . . . . . . ..””       . .   6

~INGS        ..........................................
                                                                                                       . . . . . . . .
 6
 �Medicare~edicaid         Comparison          ............................
                                                                                                              . . . . . . 7

          Pricing Method       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                            9

          Manufacturers’     Rebate Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                . . . . . . 9

  �Additional    SatingsPossible          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                     ..11

 ~CO-~A~ONS....o.......                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                                                                                                     .     A-1

 APW~~k             Cost Comparison Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


                                                                                                                      . B-1

  APPEND~B:         HCFAComments                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                         INTRODUCTION


PURPOSE

This report examines differences in the reimbursement methodologies used by the
Medicare and Medicaid programs topay for prescription drugs, focusing onthree
inhalation drugs usedin nebulizers.

BACKGROUND

Anebulizeris    atype of durable medical equipment (DME) through which
prescription drugs areadministered   for inhalation therapy. Itconsists essentially of
two components: (1) a power source such as an air compressor or ultrasonic device,
and (2) a dispensing mechanism consisting of flexible tubing, a mouthpiece, and liquid
reservoir. Patients with respirato~ conditions such as asthma or emphysema may
require treatment that involves the use of a nebulizer. The nebulizer is used by
placing an inhalation prescription drug into its reservoir which is then converted into a
fine spray by the power source and inhaled by the user.

Medicaretiogram

Title XVIII of the Social Security Act authorizes coverage of DME under Medicare

Part B. Section 2100.5 of the Medicare Carriers Manual specifies instances involving

covered uses of outpatient prescription drugs, The Manual specifies that drugs are

covered under Medicare Part B as long as the drugs are necessary for the effective use

of the DME.


In June 1992, the Health Care Financing Administration (HCFA) issued a final rule

designating four Durable Medical Equipment Regional Carriers (DMERCS) to process

all claims for durable medical equipment, prosthetics, orthotics, and supplies, including

nebulizer drugs. Effective October 1, 1993, the DMERCS replaced more than 50 area

carriers which had previously processed DME claims. The geographical areas

formerly serviced by the carriers were phased in under the DMERCS on a staggered

basis. The DMERCS issue identical coverage policies to ensure consistency in

Medicare guidelines. The four DMERCS are:


  .	   MetraHealth in Wilkes-Barre, Pennsylvania (hereafter referred to as DMERC
       A). This DMERC processes claims for nebulizer drugs for Medicare
       beneficiaries residing in 10 States.

  .	   AdminaStar Federal Inc. in Indianapolis, Indiana (hereafter referred to as
       DMERC B). This DMERC processes claims for Medicare beneficiaries in nine
       States and the District of Columbia.




                                            1

  .	   Palmetto Government Benefits Administrators in Columbia, South Carolina
       (hereafter referred to as DMERC C). This DMERC processes claims for
       Medicare beneficiaries in 14 States, Puerto Rico, and the Virgin Islands.

  *	   Connecticut General Life in Nashville, Tennessee (hereafter referred to as
       DMERC D). This DMERC processes claims for Medicare beneficiaries in 17
       States and three territories.

According to42 Code of Federal Regulations 405.517, Medicare prices drugs based on

the lower of an Estimated Acquisition Cost (EAC) ora national Average Wholesale

Price (AWP). The resulting allowed amount is the price that Medicare and its

beneficiaries pay a drug supplier. If a drug has multiple sources (as do the three

nebulizer drugs included in this review), the price is based on the lower of the EAC or

the median of the national AWP for all generic sources. The EAC is determined

based on surveys of the actual invoice prices paid for the drug. The AWP is

determined through The Red Book or similar price listings used in the pharmaceutical

industry.


Pharmacies or DME suppliers (hereafter referred to as drug suppliers) generally bill

Medicare for nebulizer drugs using 20 “J” procedure codes which were implemented in

late 1993. The “J” codes identi~ the product, but not the manufacturer and,

therefore, not whether the dispensed drug is a brand-name drug or generic equivalent.

Prior to the use of “J” codes, procedure code A4610--defined as “medical supplies”--

was used.


According to HCFA Part B data, Medicare allowed amountsl for nebulizer drugs

remained relatively stable during Calendar Years (CYS) 1990 through 1992, never

exceeding about $74 million annually. In CY 1993 the allowed amounts jumped to

about $170 million, and rose to about $226 million in CY 1994--an increase of over

200 percent from CY 1990. During the 14-month period of our review--January 1,

1994 through February 28, 1995, the allowed amounts for nebulizer drugs totaled

about $269 million.


Medicaidl?ogram

State Medicaid agencies generally reimburse drug suppliers per prescription with the
amount of reimbursement varying by drug. Each State agency has the authority to
develop its own reimbursement formula for prescription drugs, including recipient
copayments, subject to upper payment limits established by HCFA. For the drugs that




   1 The allowed amount represents the total amount of the payment for the drug. Medicare
pays 80 percent of the allowed amount and the beneficiaries pay the remaining 20 percent.


                                            2
we reviewed, the State Medicaid Manual, Section 6305.1 B states that payments for
drugs must not exceed, in the aggregate, prices determined by applying the lower of
the EAC, plus a reasonable dispensing fee, or the provider’s usual and customary
charges to the public. Many States also use a discounted AWP to set drug prices.

Drug suppliers bill prescription drugs to the State Medicaid agency using a national
drug code (NDC). The NDC identifies the firm that manufactures or distributes the
drug along with the drug’s characteristics. The NDC also indicates if a drug is a brand
name or a generic equivalent. Thus, unlike a State Medicaid agency, a DMERC
cannot differentiate between brand and generic drugs.

With the enactment of the Omnibus Budget Reconciliation Act of 1990 (OBRA 90),
Public Law 101-508, enacted November 5, 1990, pharmaceutical manufacturers are
required to enter into and have rebate agreements in effect with all State Medicaid
agencies for drugs dispensed to Medicaid recipients. Manufacturers must have a
completed rebate agreement in effect for their products to be eligible for inclusion in
the Medicaid program. For CY 1994, quarterly rebates for innovator multiple source
drugs (that is, brand name drugs) were based on the greater of 15.4 percent of
Average Manufacturer Price (AMP)2 or the difference between the AMP and Best
Price.3 For non-innovator (generic) multiple source drugs, the rebate was 11 percent
for CY 1994. The Medicare program does not use rebate agreements to reduce the
cost of covered drugs dispensed to Medicare beneficiaries.

Reliued Work by the Of&e of InspectorGeneral

We recently issued a report entitled, Medicare Part B--Reimbursement To Providers For
Drugs Used In Conjunction Wi~hDurable Medical Equipment (CIN-A-06-92-00079). In
this study, we found that HCFA lacked clear legislative authority to cover self-
administered outpatient prescription drugs. Additionally, we concluded there was no
assurance that substantial amounts of drugs were properly priced and paid because
HCFA did not require carriers to obtain detailed pricing information. We
recommended HCFA seek legislation to expressly authorize the coverage of drugs
used with DME and implement policies and procedures to ensure that carriers
properly price and pay prescription drugs.

METHODO~GY            AND SCOPE

Our objectives for this review were to identify differences in the reimbursement
methodologies used by the Medicare and Medicaid programs to pay for prescription


    2 AMP is the average price paid by wholesalers for products distributed to the retail class
or trade.

   3 Best Price is the lowest price paid by any purchaser (exclusive of depot prices and single-
award contract prices as defined by any Federal agency) and includes products with special
packaging, labeling, or identifiers.


                                               3
drugs, and to estimate the additional costs incurred by the Medicare program and its
beneficiaries forthree selected nebulizer drugs. Ourreview includes Medicare and
Medicaid payments for nebulizer drugs for the period January 1,1994 through
February 28, 1995.

We reviewed HCFAS policies and procedures concerning Medicare and Medicaid
reimbursement for drugs. We obtained the Medicare information we needed to
achieve our objectives from HCFA’S National Claims History (NCH) One Percent
Sample file and the DMERCS responsible for processing nebulizer drug claims. Using
the NCH, we obtained drug claims for 20 “J” codes used for nebulizer drugs. We
grouped the claims by “J” code and by the State of beneficiary residence. We then
selected the three nebulizer drugs with the highest allowed amounts: (1) Albuterol
Sulfate, 0.083%, hereafter referred to as Albuterol Sulfate; (2) Metaproterenol Sulfate,
0.4%; and (3) Metaproterenol Sulfate, 0.6%. Projecting the allowed amounts obtained
from the NCH to the universe of nebulizer drugs, we determined that the three
selected drugs totaled about $211.7 million, or about 79 percent of the $269 million
allowed for all nebulizer drugs. Albuterol Sulfate accounted for $182.3 million of the
allowed amounts.

We then selected 17 States4 (based on the beneficiaries’ States of residence) with the
highest allowed amounts for nebulizer drugs, and grouped these States under their
servicing DMERC, as shown below:


            STATES AND SERVKXNG DMERCs INCLUDED IN REVIEW

INew	
  DMERC
      York
               A
                   I
                        DMERC B
                       Illinois
                                   I
                                       Alabama
                                                     DMERC C
                                                      )
                                                        Louisiana
                                                                            I
                                                                                  DMERC D
                                                                                California
                                                                                             1
                                                                                             1
    Pennsylvania
                   \
                       Michigan
                       Ohio
                                   I
                                       Arkansas
                                       Florida
                                                       I
                                                           Mississippi
                                                           North Carolina
                                                                            1
                                                                                Missouri
                                                                                Washington
                                                                                             I
                                       Georgia             Texas

I                                  I Kentuc@




    4 Puerto Rico, Tennessee, and Arizona were originally included in the top States
for review. However, reimbursement information was not available for Puerto Rico
from HCFA’S Medicaid Drug Rebate Initiative (MDRI) system, and Arizona and
Tennessee’s Medicaid programs are operated by several managed care programs. The
MDRI system assists HCFA in monitoring the manufacturers’ rebate program. The
system calculates rebate amounts for individual drugs, and transmits these amounts to
the Medicaid agencies for use in invoicing drug manufacturers. Each managed care
program operates independently and sets their own fees and payments. Therefore,
Puerto Rico, Tennessee, and Arizona were excluded from our review.

                                                 4
We projected that the Medicare beneficiaries in the 17 selected States accounted for
about $146.9 million or about 69 percent of the $211.7 million in allowed amounts for
the three nebulizer drugs from January 1, 1994 through February 28, 1995. We
obtained actual allowed prices per milliliter (ml) for the three selected nebulizer drugs
throughout the period of our review from the DMERCS. We used these prices, which
include the beneficiary copayments, in our comparisons to Medicaid.

We obtained the Medicaid information we needed to achieve our objectives from the
MDRI system, and from contacts with the 17 State Medicaid agencies concerning their
dispensing fees and recipient copayment amounts. We factored the dispensing fees
and copayment amounts into our computations of the Medicaid price per ml. For
information on how we compared the costs of the three selected nebulizer drugs for
the Medicare and Medicaid programs, see Appendix A.

This review is part of Operation Restore Trust, an initiative combining the forces of
multiple agencies to combat Medicare and Medicaid fraud, waste, and abuse in
California, Florida, Illinois, New York, and Texas. Together, these States account for
40 percent of the nation’s Medicare and Medicaid beneficiaries.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            5

                                  FINDINGS


MEDICARE AND ITS BENEFICIARIES PAID ABOUT $37 MILLION MORE
FOR THREE NEBULIZER DRUGS IN 17 STATES THAN THE AMOUNT
MEDICAID WOULD HAVE PAID FOR EQUIVALENT DRUGS.

During the period under review, January 1, 1994 through February 28, 1995, Medicare
and its beneficiaries paid about $37 million more for three nebulizer drugs in 17 States
than the amount Medicaid would have paid for equivalent drugs.

Two significant differences in the drug reimbursement methodologies used by the
Medicare and Medicaid programs caused Medicare and its beneficiaries to pay more
for the nebulizer drugs. One, Medicare allowed a higher price to drug suppliers for
two of the three drugs reviewed because of the manner in which it used the AWP to
determine the drug price. This resulted in increased costs to the Medicare program of
over $11.7 million. Because Medicare beneficiaries are required to make a copayment
of 20 percent for selvices received under Medicare, beneficiaries also had to absorb a
portion of the higher drug prices. Second, Medicare does not have a manufacturers’
rebate program similar to Medicaid’s. This resulted in increased costs to the Medicare
program OFabout $25.3 million. The following table illustrates the higher costs of the
three nebulizer drugs to the Medicare program resulting from differences in the drug
reimbursement methodologies.




                                Higher Cost of Medicare Drugs Due To:
     Nebulizer Drugs
        Reviewed               Higher Prices Paid    Lack of Manufacturers’      Total
                               to Drug Suppliers        Rebate Program
 Albuterol Sulfate                    $11,265,556                $22,870,051   $34,135,607
 Metaproterenol   Sulfate                  (6,341)                 1,614,042     1,607,701
 0.4%
 Metaproterenol      Sulfate              447,731                    816,856     1,264,587
 0.6%
 Totals                               $11,706,946                $25,300,949   $37,007,895
 Percentage                                  32%                        68%          100%




                                               6

Nebulizer drug reimbursements could be reduced by allowingDMERCS the option of
basing prices on the lower of either a discounted AWP for the drug dispensed or the
median of the AWP for all generic sources.

Medicare and its beneficiaries paid drug suppliers over $11.7 million more than the
amount that Medicaid would have paid for equivalent drugs. The higher payments to
the drug suppliers were caused by Medicare using the median of the national AWP for
all generic sources versus Medicaid’s method of discounting the AWP.

The State Medicaid Manual, Section 6305.1 B states that payments for drugs must not
exceed, in the aggregate, payment levels determined by applying the lower of the
EAC, plus a reasonable dispensing fee, or the provider’s usual and customary charges
to the public. The Manual further states that in the past many States based the EAC
upon the AWP, but that a number of studies have shown that:

      “...there is a preponderance of evidence that demonstrates that such A WP
      levels overstate the prices that pharmacists actually pay for drug products by
      as much as 10-20 percent because they do not reflect dkcounts, premiums,
      special offe~ or incentives, etc. Consequently, wi~hout valid documentation
      to the contrary, a published A WP level as a State determination of EAC
      without a significant discount being applied k not an acceptable estimate of
      prices generallv and current~ paid by providers. ”

In general, the four DMERCS developed Medicare drug prices using the median AWP
for the generic drug equivalent of the drugs being purchased. Thirteen of 17 State
Medicaid agencies discounted the AWP an average of 9.6 percent in pricing drugs as
suggested by the State Medicaid Manual. Two other State agencies used the
Wholesale Acquisition Cost (WAC) plus a percentage of the WAC as the basis for
pricing drugs. Only two State Medicaid agencies based drug prices on the AWP.
These differences in computing drug prices resulted in Medicare and its beneficiaries
paying over $11.7 million more than the 17 State Medicaid agencies included in our
review, as shown on the following page.




                                            7

                                     DMERCS


Iebulizer Drugs
   Reviewed

Albuterol
                        A


                      ($115,086)
                                          B


                                     $1,627,822
                                                           c


                                                       $8,929,695
                                                                         D


                                                                        $823,125
                                                                                     Total



                                                                                   $11,265,556
Sulfate

Metaproterenol           (23,595)     $        6,750   $       10,504          0       (6,341)
Sulfate, 0.4%
                                                                                                 1


Metaproterenol           (90,432)     $       41,887   $ 419,539        $76,737        447,731
Sulfate,
0.6%

Totals            I   ($229,113)1    $1,676,454        $9,359,7381      $899,8621 $ll,706,94~\

The above table shows that pricing drugs in amanner similar to the 17 State Medicaid

agencies would not always result in a savings foreach DMERC or for each drug.

DMERC A would actually have allowed $229,113 more than its two State Medicaid

agency counterparts because both State agencies based their prices on the AWP of the

drugs dispensed rather than on a discounted AWP as indicated in the State Medicaid

Manual. We also noted that some of the other State Medicaid agencies paid more for

Metaproterenol Sulfate, 0.4%, (six State agencies) and Metaproterenol Sulfate, 0.6%,

(seven State agencies) primarily because of the number of brand name drugs

dispensed (the discounted AWP in these cases was higher than the median of the

national AWP for all generic sources).


Because the practice of basing Medicare drug prices on Medicaid drug prices paid to

drug suppliers does not always result in a lower price than Medicare’s current method

of using the median of the national AWP for all generic sources, we believe the

optimum approach to revising Medicare’s pricing methodology would allow DMERCS

the option of using either of the two pricing methods that would result in lower costs

to the Medicare program and its beneficiaries. Had this option been available to the

four DMERCS, we estimate that Medicare and its beneficiaries could have saved an

additional $400,000 bringing the total savings to $12.1 million.





                                                8

The cost of nebulizer drugs to the Medicare program could be further reduced by
establishinga manufacturers’ rebate program similar to Medicaid%.

The lack of a manufacturers’ rebate program caused Medicare to pay about $25.3
million more for the three drugs than the amount that Medicaid would have paid for
equivalent drugs.

We reviewed data contained in the MDRI system for the 17 State Medicaid agencies
included in our review. This data is grouped by manufacturer and product code and
includes information on the rebate amount per unit, total units dispensed, and total
rebate amounts claimed. Using this data, we were able to determine the amount of
the rebate per ml that each State agency received for the three nebulizer drugs
reviewed. We applied the rebate amount to the number of mls paid for by Medicare.
As shown below, all four DMERCS would have reduced their drug costs had a
manufacturers’ rebate program been in effect for Medicare.




                                          DMERCS





LNebulizer Drugs
    Reviewed

 Albuterol Sulfate


 Metaproterenol

                         A


                      $1,899,860

                          78,650
                                     B


                                   $4,060,684

                                          8,250
                                                     c


                                                  $11,905,347

                                                    1,527,115
                                                                   D
                                                                               Total



                                                                $5,004,160 $22,870,051

                                                                         27   1,614,042
 Sulfate, 0.4%


 Metaproterenol
         199,426         79,300       412,527       125,603     816,856
 Sulfate,

 0.6%


 Totals
              $2,177,936   $4,148,234     $13,844,989    $5,129,790 $25,300,949

 POTENTIAL MEDICARE SAVINGS ARE NOT RESTRICTED TO THE THREE
 NEBULIZER DRUGS AND 17 STATES REVIEWED.

 This review showed that Medicare and its beneficiaries paid a net of about $37 million
 more for three nebulizer drugs than the amount that the 17 State Medicaid agencies
 would have paid for equivalent drugs because of the manner in which Medicare priced
 drugs and the absence of a manufacturers’ rebate program. Because these NO
 differences are inherent in the reimbursement methodologies followed by Medicare
 and Medicaid, the potential cost savings available to Medicare are not, in our opinion,
 restricted to the three drugs or the 17 States included in our review.


                                             9
For example, 26 State Medicaid agencies not in our review reported that they discount
the AWP an average of about 9 percent in determining drug prices. Only three State
agencies not in our review reported using the AWP as the basis for determining drug
prices. Thus, allowing DMERCS the option of using a discounted AWP like their
State Medicaid agency counterparts could result in cost savings in many of the 26
States that base prices on a discounted AWP.

As noted earlier, Medicare allowed about $226 million for the 20 nebulizer drugs in
1994. If Medicare had revised its drug pricing methodology and implemented a
manufacturers’ rebate program, about $58 million of the $226 million allowed for
nebulizer drugs (excluding administrative costs) in 1994 could have been saved.

Medicare also allowed more than $1 billion for other drugs in 1994. We estimate that
Medicare and its beneficiaries could have saved about $83 million had Medicare’s drug
pricing methodology been revised. Furthermore, had there been a drug rebate
program in effect, the estimated savings could have increased even more substantially.




                                          10

                   RECOMMENDATIONS


We recommend that HCFA reexamine its Medicare drug reimbursement
methodologieswith a goal of reducing payments as appropriate.

Our report demonstrates that Medicare could have saved millions by discounting the

wholesale price and establishing a rebate program. We recognize, however, that other

cost saving options are available. One or more of the following options should be

aggressively pursued to save Medicare funds and to place this program on par with

Medicaid and other payers in obtaining competitive pricing for prescription drugs.


Discounted Wholesale Price


Many State agencies use a discounted AWP to establish drug prices. Medicare should

have a similar option. Medicare could base its drug payment on the lower of a

discounted AWP or the median of the AWP for all generic sources, whichever results

in the lower cost to Medicare and its beneficiaries. To implement this

recommendation, HCFA would have to revise Medicare’s claims coding system which

does not identify the manufacturer or indicate if the drug is a brand name or a generic

equivalent, information that is needed to discount the AWP and obtain a rebate for a

specific drug. Medicaid uses the NDC in processing drug claims. The NDC identifies

the manufacturer and reflects whether the drug is a brand name or a generic

equivalent.


Manufacturers’   Rebates


Medicare could develop a legislative proposal to establish a mandated manufacturers’

rebate program similar to Medicaid’s rebate program. We recognize that HCFA does

not have the authority to simply establish a mandated manufacturers’ rebate program

similar to the program used in Medicaid. Legislation was required to establish the

Medicaid rebate program, and would also be required to establish a Medicare rebate

program. We have not thoroughly assessed how a Medicare rebate program might

operate, what administrative complexities it might pose, or how a Medicare rebate

program might differ from a Medicaid rebate program. We believe, however, the

legislative effort would be worthwhile. The same manufacturers that provide rebates

to Medicaid make the drugs that are used by Medicare beneficiaries and paid for by

the Medicare program.


Competitive Bidding


Medicare could develop a legislative proposal to allow it to take advantage of its

market position. While competitive bidding is not appropriate for every aspect of the

Medicare program or in every geographic location, we believe that it can be effective



                                           11
in many instances, including the procurement of drugs. Medicare could ask
pharmacies to compete for business to provide Medicare beneficiaries with
prescription drugs. All types of pharmacies could compete for Medicare business,
including independents, chains, and mail-order pharmacies.

Inherent Reasonableness

Since Medicare’s guidelines for calculating reasonable charges for drugs result in
excessive allowances, the Secretary can use her “inherent reasonableness” authority to
set special reasonable charge limits. If this option is selected, however, it will not be
effective unless the Secretary’s authority to reduce inherently unreasonable payment
levels is streamlined. The current inherent reasonableness process is resource
intensive and time consuming, often taking two to four years to implement. Medicare
faces substantial losses in potential savings--certainly in the millions of dollars--if
reduced drug prices cannot be placed into effect quickly.

Accwisition Cost

Medicare could base the payment of drugs on the EAC. The DMERCS currently
have this option; however, HCFA has been unsuccessful in gathering the necessary
data to fully implement it. Once the problem of gathering the necessary data is
overcome, the use of the EAC would result in lower allowed amounts.

AGENCY COMMENTS

The HCFA concurred with our recommendation and is currently examining available
options in an effort to make appropriate drug payment reductions. The HCFA
expects by early 1996 to reach a decision on whether to proceed with a legislative
proposal or to revise current regulations. The full text of HCFAS comments maybe
found in Appendix B.




                                            12

                           APPENDIX                  A


                           COST COMPARISON NOTES


The objectives of this review were to identify differences in the reimbursement

methodologies used by the Medicare and Medicaid programs to pay for three

nebulizer drugs. In estimating the costs incurred as a result of the different

reimbursement methodologies, we considered: (1) the difference in the price of a

drug paid to drug suppliers, and (2) manufacturers’ rebates received by the State

agencies which lower the overall cost of the drug to the Medicaid program. We also

computed potential cost savings if (1) DMERCS had the option of basing the price

paid to a drug supplier on a discounted AWP, and (2) a manufacturers’ rebate

program had been in effect.


We used HCFA’S NCH to select the three drugs paid by Medicare, and the 17 States

(based on the State where the beneficiaries dispensed the drugs resided) included in

this review. The selections were based on allowed amounts. We did not, however,

use the allowed amounts on the NCH to determine the drug price per ml paid by the

four DMERCS. The allowed amounts on the NCH were high because carriers

continued to pay claims as DMERC operations were being phased in. Rather than

use the higher prices paid by the carriers in comparing Medicare to Medicaid, we

obtained allowed amounts per ml from the DMERCS for each of the selected

nebulizer drugs during the period of our review. We used the allowed amounts, which

is the price paid by Medicare and its beneficiaries, in making our program

comparisons.


To determine the prices paid to drug suppliers by the 17 State Medicaid agencies, we

first identified all Medicaid NDCS for the three nebulizer drugs in our review from the

1994 edition of a published national drug compendium (for example, there were 19

NDCS listed in the compendium for Albuterol Sulfate). We then used two basic

sources to compute Medicaid drug prices. From the MDRI system, we obtained:

(1) the total amount that the 17 State Medicaid agencies reimbursed drug suppliers

for each of the three selected nebulizer drugs; (2) total drug mls dispensed for each

drug; and (3) total number of prescriptions for each drug. (Typically, nebulizer drugs

are dispensed in vials which contain three mls of the product.) From contacts with the

State Medicaid agencies, we identified: (1) the dispensing fee per prescription that

the State agencies included in their payments to drug suppliers for the period of our

review, and (2) copayment amounts that each recipient must pay drug suppliers for

nebulizer drugs.


Using this information, we calculated the price that each of the 17 State Medicaid

agencies would have paid to drug suppliers for the three nebulizer drugs, as shown

below.




                                         A-1

1.	   We recorded the total reimbursable amount paid to drug suppliers by a State
      agency for a NDC as shown on the MDRI system.

2.    We subtracted from the total reimbursable amount the total dispensing fees
      paid to the drug suppliers. We computed the total dispensing fees by
      multiplying the number of prescriptions per NDC as shown on the MDRI
      system by the State Medicaid agency’s dispensing fee per prescription. This
      step was needed to separate the cost of the drug from the professional
      dispensing fee, both of which were lumped together in the State agency
      payment to the drug supplier.

3.	   We added to the total reimbursable amount the total copayments that were the
      responsibility of the Medicaid recipients. We computed this total by multiplying
      the number of prescriptions as shown on the MDRI system by the copayment
      amount provided by each State agency. This step was necessary to arrive at
      total reimbursable amounts paid to drug suppliers by both the State agencies
      and the recipients who shared in the payments.

4.	   We divided total reimbursable amounts paid to drug suppliers as computed
      above by the total mls dispensed as shown on the MDRI system to arrive at the
      price paid to drug suppliers per ml. We consider this the total price of the
      drug per ml paid to the drug supplier by a State Medicaid agency.

We then applied the difference between the Medicare price per ml paid by the four
DMERCS and the Medicaid price per ml paid by the 17 State Medicaid agencies to
the volume of drugs reimbursed by Medicare, per the NCH. The comparison showed
that Medicare paid over $11.7 million more than the amount that the 17 State
Medicaid agencies would have paid. In making the above computations, we had
pricing data for the entire 14-month period of our review for Medicare, but only 9
months for Medicaid. We, therefore, compared the 9-month Medicaid data against
Medicare data for both a 9-month and 14-month period, and used the most
conservative results (that is, the lowest Medicare price regardless of the time period).

The actual cost of a drug to the Medicaid program is lessened by quarterly rebates
provided by drug manufacturers. To arrive at this cost to the Medicaid program, we
subtracted from the total price per ml paid to drug suppliers by a State agency (as
computed in step 4 above) the rebate amount per ml as shown in the MDRI system.
We then compared this amount to the Medicare price per ml paid to drug suppliers to
determine the total amount that Medicare paid in excess of the cost of the drugs to
the Medicaid program after the rebate was factored in.

We determined that the Medicare program and its beneficiaries paid about $37
million more for the three nebulizer drugs than the amount that Medicaid would have
paid for the drugs. This excess cost could have been avoided had: (1) the four




                                          A-2

          Comments of the Health Care Financing Administration (HCFA’)on office of
        Insmctor General (01(3) Drafl ReDort “Me&care Pavrnents for Nebuliier Drum.”
                                     (oEI-03-94-oo390\


OIGRecommendation


HCFA should reexamin e itslMedicare drug reimbursement methodologies with a goal of reducing

payments as appropriate.


HCFA ResDonse


We appreciate the list of options fbrnished by OIG and are currently examining all options

available in an effort to make appropriate drug payment reductions. The list of options finished

by OIG focuses on legislative and regulatory changes to our current drug payment policy. We are

currently focusing on a number of options and expect to reach a decision early next year on

whether to proceed with a legislative proposal or to develop a revision to our current regulations.


Discounted Wholesale Price

We examined ways of reducing payments for many drugs, including nebulizers. As an initial step

toward this optio~ we are developing a crosswalk between the current HCFA common procedure

coding system and the National Drug Code (NDC). In the near fiture, this development will

enable HCFA operations to process claims using the NDC, which identifies the drug,

manufacturer, and packaging. By using this additional information provided by the NDC, we can

reduce drug payments by basing them on the lower of a dkcounted Average Wholesale Price

(AWP) or the medhm of the AWP for all generic sources.


Manufacturers’ Rebates/Competitive Bidding

These options involve proposing legislation to mandate a “Manufacturers’ Rebate Program”

similar to Medicaid’s rebate program and to allow for “competitive bidding.” As part of the

Medicare drug benefit proposed in the Administration’s health care reform bill, we put forward

both a manufacturers’ rebate program and discounted wholesale pricing. All drugs covered under

Medicare Part B would have been sHkcted by these new payment rules. We are currently

examining the issues involved in adopting the drug prices available to M~lcaid through its rebate

program. We are also developing a competitive bidding demonstration for certain durable

medical equipment, prosthetics, md orthotics (DMEp(3S) incluclhg nebulizers and bronchodilator

drugs.


Inherent Reasonableness

We agree that the Secretary’s authority to make “inherent reasonableness” payment changes for

DMEPOS should be simplified. IJnder current law, only the secretary can determine whether

Medicare payments for DMEPC)S are “grossly excessive or deficient” and propose the necessary

payment changes. Prior to the Omnibus Budget Reconciliation Act of 1987, Medicare carriers

had the authority to propose inherent reasonableness payment changes for DMEPOS. h this

regard, we believe that inherent reasonableness authority should be restored to Medicare’s

     �,*   ,Iwlc,,   ~
                      ‘*
    *+
                                                                                                Health Care Financing Administration


           $                    DEPARTMENTOF HEALTH& HUMAN SERVICES
 �
~
:
:.
 %
   ‘+                                                                                           The Administrator
     ‘4.	
       4.,,,0
       >
                                                                                                Washington,          D.C.   20201




                           TO           June GibbsBrown
                                        Inspector General

                           FROM	        Bruce C. Vladec
                                        Administrator

                           SUBJECT      Office of Inspector General M   lleporE ‘%ledicae   Payments for
                                        Nebulizer Drugs,” (OEI-03-94-O0390)



                           We reviewed the above-referenced report which examines the diHerences h tie
                           refibwsement    methodolo~es used by the Medicare and Me&ctid pr’ogr~s to pay for
                           nebulizer drugs. Attached are our comments on the report recommen&tion.

                           Thank you for the opportun.@ to review and comment on this draft repoti.

                           Attachment



                                                              10
                                                              SAro
                                                              PDm

                                                              Dx&la
                                                              DIWI
                                                              DIG.MP                                                 c_      ?
                                                            - AIGcFAA.—                                              :>
                                                                                                                     ..-     -!

                                                                                                                               ;)
                                                                                                                              ,-

                                                                                                                               .
                                                                                                      ..
                                                                                                      .
                                                                                                           !,.
                                                                                                                               .

                                                                                                      r-~’           >      --l
                                                                                                         .’, ”                -.
                                                                                                            ..       —
                                                                                                           (.
                                                                                                           _,         ..
                                                                                                            c.       .,-
                                                                                                            .	 .,,   .-r­
                                                                                                            ..
DMERCsbeen     able toadopt thesame drug pricing methods as their 17 State
Medicaid agency counterparts, and (2) a manufacturers’ rebate program been in effect
for Medicare.

As shown in this report, however, although Medicaid’s pricing methods resulted in a
net savings of over $11.7 million, there were instances where Medicare’s current
method of pricing resulted in a lower price. This had the effect of lowering the
potential savings to Medicare. Because of this we recommended that HCFA allow
DMERCS the option of using Medicaid’s method of discounting the AWP or
Medicare’s method of using the median of the national AWP for all generic sources,
whichever results in the lower cost to Medicare and its beneficiaries.

Had the DMERCS been allowed this option, they could have saved the Medicare
program and its beneficiaries $12,136,321 on the price paid to drug suppliers. The
increase is due to the fact that whenever the Medicaid price per ml was higher then
Medicare’s price, we used Medicare’s price. This had the effect of increasing the cost
savings available to Medicare by $429,375. Adding the cost savings attributed to the
manufacturers’ rebate program, the total potential cost savings is $37,437,270.




                                        A-3

APPENDIX     B




       B-1
Page 2


carriers. Because inherent r~onableness is the only tool we have, HCFA has already started

doing the pricing studies necessary to determine iflowering prices of nebulizers is appropriate.


AcquisitionCost

This optioninvolvesloweringdrugpayments by basing them on the estimated acquisition cost. A

1994 survey attempt wss made by EICFAto COlkt the necessary data to My implement current

regulations. The SUIVeywss not approved by the office of Management and Budget. The sumey

was found to be too burdensome to pursue because of the large number of physicians and drugs

that would be included. We are currently examining a way to reduce or eliminate the survey

burden by using a percentage of the AWP similar to that used by Medicaid.

